HHS/OIG-Audit--"Review of Compliance with the Consolidated Billing Provision Under the Prospective Payment System for Skilled Nursing Facilities, (A-01-99-00531)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Compliance with the Consolidated Billing Provision Under the Prospective Payment System for Skilled Nursing
Facilities," (A-01-99-00531)
March 27, 2000
Complete
Text of Report is available in PDF format (863 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Under current law a skilled nursing facility (SNF) is reimbursed a prospective payment (PPS) for all covered services
(consolidated billing) rendered to its Medicare beneficiaries in a Part A stay and outside providers and suppliers must
bill the SNF (not Medicare) for services rendered. A probe judgement sample of 147 Medicare Part A SNF PPS claims submitted
by 18 SNFs and paid by 4 fiscal intermediaries (FI) for the 7-month period ending April 30, 1999 disclosed, however, that
the FIs continue to make separate Part B payments (50 of the 147 claims) to outside providers and suppliers for services
which were subject to consolidated billing. As a result, the Medicare program is paying twice for the same service--once
to the SNF under Part A prospective payment and again to an outsider provider or supplier under Part B. Medicare computer
edits need to be established to detect and prevent claims noncompliant with the consolidated billing provision. We recommended
that the Health Care Financing Administration (HCFA) establish such edits. We also recommended that HCFA work with the
OIG in developing a computer application to identify and recover overpayments made subsequent to the implementation of
the consolidated billing provision, and issue a fraud alert and memorandum to contractors of the prevalent types of payment
errors and directing contractors to educate their providers with respect to compliance with the consolidated billing requirement.
The HCFA concurred with our recommendations.